% I IN THE

t'

y V

i

r

"V.

n,

ORIGINAL
Supremo Court, U.S.
FILED

MAY 2 4 2021

SUPREME COURT OF THE UNITED STATES

OFFICE OF THE CLERK

HERNANDO JAVIER VERGARA
Petitioner

V

UNITED STATES OF AMERICA
Respondent

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Eleventh Circuit

PETITION FOR WRIT OF CERTIORARI

Hernando Javier Vergara
Pro Se

2680 U.S. HWY 301 South
Jesup, GA 31599

RECEIVES
JUN 2 - 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

Questions Presented
In a previous holding (United States v Raymond, 588 U.S., 139 S.Ct._,
204 L. Ed. 2d 897 LEXIS 4398 (2019), this Court ruled that 18 U.S.C. §3583(1*;)
was unconstitutional due to its requirement of a mandatory minimum sentence
without the benefit of a jury. This had the effect of, for the first time,
applying criminal protections to the Supervised Release Statute

(18 U.S.C.

§3583). The Questions Presented in this petition are:
1) Should the Haymond ruling be considered retroactive?
2) Is Haymond in fact, a new line of jurisprudence?
3)

Does

the

Unconstitutionality

of

§3583(k)

invite

Constitutional

scrutiny upon the entirety of §3583?
4)

If so, then does §3583 violate the 5th, 6th, and 8th Amendments?

5) Is a Supervised Release Term of Life Unconstitutional?

i

Table of Contents

Questions Presented

i

Table of Contents

ii

Table of Authorities

iii

Opinion Below

1

Jurisdiction

2

Constitutional Provisions Involved

3

Statement of the Case

4

Reasons for Granting the Petition

5

I. The Questions Presented Raise Constitutional Issues That

5

Apply In Nearly Every Federal Proceeding
II. This Is The Right Time for the Court To Intervene, As

6

Supervised Release Revocations Are A Driving Force for
Mass Incarcerations, Which Due to COVID-19, Is Killing
Many Americans
III. Supervised Release Violates the Fifth Amendment

7

IV. Supervised Release Violates the Sixth Amendment

9

V. Supervised Release Violates the Eighth Amendment

11

Conclusion

11

ii

Table of Authorities
United States v Haymond, 588 U.S.

, 139 S.Ct. 2369, 204 L.Ed. 2d 897 (2019)

Blockburger v United States, 284 U.S. 299, 52 S.Ct. 180, 76 L.Ed. 306 (1932)
United States v Johnson, 529 U.S. 53, 146 L.Ed. 2d 39, 120 S.Ct. 1114 (2000)
United States v Everhart, 805 Fed. Appx. 638 (11th Cir. 2020)
Gamble V United States, 139 S.Ct. 1960, 294 L.Ed. 2d 322 (2019)
Gross v Rice, 71 Me. 241, 246-252 (1810)
In Re. Edwards, 43 N.J.L. 555, 557-558 (1881)
Apprendi v New Jersey, 530 U.S. 466, 147 L.Ed. 2d 435, 120 S.Ct. 2348 (2000)
Blakely v Washington, 542 U.S. 296, 124 S.Ct. 2531, 159 L.Ed. 2d 403 (2004)
Alleyne v United States, 133 S.Ct. 2151, 186 L.Ed. 2d 314 (2013)

iii

Opinion Below
The

11th Circuit Court of Appeals determined that jurists of reason

would not find these issues debatable, and refused to grant a Certificate of
Appealability. It did not reach the merits of the argument beyond that.

1

Jurisdiction
The

United

States

District

Court,

Middle

District

of

Florida,

had

jurisdiction over this case under 28 U.S.C. §2255. The Court of Appeals for
the Eleventh Circuit had jurisdiction for review of the final order of the
District Court under 28 U.S.C. §1291.
Petitioner invokes this Court's jurisdiction under 28 U.S.C. §1254. This
petition is filed in a timely manner.

2

Constitutional Provisions Involved

A. 5th Amendment:
No person shall be held to answer for a capital, or otherwise infamous
crime, unless on a presentment or indictment of a Grand Jury, except in cases
arising in the land or naval forces, or in the Militia, when in actual service
in time of war or public danger; nor shall any person be subject for the same
offence to be twice put in jeopardy of life or limb, nor shall be compelled
in any criminal case to be a witness against himself, nor be deprived of life,
liberty, or property, without due process of law; nor shall private property
be taken for public use, without just compensation, (emphasis added)

B. 6th Amendment:
In all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial, by an impartial jury of the State and district
wherein the crime shall have been committed, which district shall have been
previously ascertained by law, and to be informed of the nature and cause of
the accusation;

to be confronted with the witnesses against him; to have

compulsory process

for obtaining witnesses

in his favor,

and to have the

Assistance of Counsel for his defence, (emphasis added)

C. 8th Amendment:
Excessive bail shall not be required, nor excessive fines imposed, nor
cruel and unusual punishment inflicted, (emphasis added)

3

Statement of the Case

'This case presents a pressing and recurring question of great national
importance

that

is even more pressing in light of

the COVID-19 Pandemic

following United States v Haymond, 588 U.S._, 139 S.Ct. , 204 L. Ed. 2d 897
(2019); about whether the Constitution allows for the theoretical framework
of Supervised Release at all, and if so, to what extent?
The

Fifth

Amendment

prohibits

multiple

punishments

for

a

single

conviction. Yet current jurisprudence considers Supervised Release to be part
of a single punishment. Supervised Release, however,

fails the Blockberger

Test AND fails to fall into the traditional framework of Parole.
The Sixth Amendment provides that all criminal prosecutions shall enjoy
the

benefit

of

a

right to trial by jury,

yet despite Haymond1s clearly

establishing that Supervised Release revocations proceedings are a criminal
prosecution, there is currently no such benefit.
The

Eighth

Amendment

prohibits

Cruel

and

Unusual

Punishment,

AND

punishment beyond the statutory maximum has been declared such. Yet Supervised
Release has been imposed here for Life, despite the fact that the statutory
maximum for Petitioner's crime is 20 years. There is also no limit to the
final amount of times a Supervised person may be sent back to prison, which
exposes

someone with

Supervised

Release

to a potential Life sentence in

prison, despite the 20 year statutory maximum. This scheme blatantly violates
the Eighth Amendment.

4

Reasons For Granting the Petition

I. The Questions Presented Raise Constitutional Issues That Apply In Nearly
Every Federal Proceeding

Supervised
conviction;

Release,

by

statute,

is imposed in nearly every federal

the exceptions being a limited number of criminal prosecutions

(carved out by statute), and instances where the only punishment is probation.
Supervised

Release

is

imposed

after

a prisoner

serves his full term of

statutory incarceration. It does not run in lieu of part of his sentence, such
as in an instance of parole or probation. Like parole, it is considered to
be a continuation of his sentence under Johnson (2000), yet if that is so,
it

only

invites

further

Constitutional

challenge.

federal prisoner completes his sentence,

Unlike

parole,

when a

the government must release him.

Supposedly this is under a "breach of trust" paradigm, but how can there be
a "trust" paradigm to begin with when one has served the entirety of one's
sentence? Petitioner avers that it cannot. It is instead that a releasee has
a liberty interest, and the Supervised Release scheme violates this. To say
that a releasee can violate a "trust" to "conditional release" after he has
served his entire sentence is to say that every citizen lives under the same
obligations prior to ever having been charged with a crime. Even then this
scheme

would

implicate

equal

protection

principles,

as

releasees

face

potential imprisonment without having to violate any law... and this applies
in nearly all federal procedures... rather than a benefit, Supervised Release
is a stick used to beat defendants.

5

II. This Is The Right Time For The Court To Intervene, As Supervised Release
Revocations Are A Driving Force For Mass Incarcerations, Which Due to COVID19, Is Killing Many Americans

In Haymond,

Justice Alito mentioned that in 2018, there were 16,946

revocations of supervised release (Haymond, at 917); if only half of those
ended in additional prison time, and if that new number (roughly 8,450) occurs
as an average yearly rate, then on average, the federal prison population is
approximately one third revoked supervisees (Petitioner must guess on these
numbers,

as

internet...

they are not readily available to prisoner due to a lack of
but that is another appeal to be made and will not be argued

here). Simply removing the revoked supervisees would reduce the federal prison
population

to

below maximum

capacity.

This would be just,

as Supervised

Release is not being used to re-introduce former prisoners into society, but
rather as a stick to justify further punishment without necessarily having
committed any further crimes. As a prime example, Petitioner points to United
States v Everhart, 805 Fed. Appx. 638 (11th Cir. Feb 13, 2020), where the
defendant, after serving a 60 month sentence stemming from a 2006 conviction,
was

violated

numerous

times.

He

served

an

additional

45

months

on

six

revocations, and his Supervised Release was extended to Life. No wonder that
he

developed

an

"angry,

combative,

and

abusive"

(at

641)

attitude.

The

timeline of the revocations, and the extensions, as well as the manner in
which

his

release

conditions

were

used

against

him

to

drive

him

into

homelessness all prevented rather than assisted his re-entry.
Everhart had many hurdles to overcome without Supervised Release, but
his release conditions only added extra hurdles, and eventually he gave up
trying as anyone in a hopeless situation would. Now, he is dependant upon the
BOP to obtain sustenance...

this seems,
6

Petitioner avers,

to be the true

purpose of Supervised Release.

III. Supervised Release Violates the Fifth Amendment

In Johnson (2000), the Supreme Court "recognized that supervised release
punishments arise from and are ' treat [ed]... as part of the penalty for the
initial

offense f II

Justice

Gorsuch,

in

Haymond

quoting

Johnson

at

907.

Fortunately, Justice Gorsuch also distinguishes between traditional probation
/ parole and

§3583(k)

in the following:

"...the government contends

that

§3583(k)'s supervised release revocation procedures are practically identical
to

historical parole and probation revocation procedures...

That argument

overlooks a critical difference between §3583(k) and traditional parole and
probation

practices.

Where

parole

and

probation violations

traditionally

exposed a defendant only to the remaining prison term authorized for his crime
of conviction, §3583(k) exposes a defendant to an additional mandatory minimum
prison term beyond that authorized by the jury's verdict - all based on facts
found by a judge by a mere preponderance of
Haymond at 899)

(emphasis added).

the evidence."

(Gorsuch,

in

Also telling is Justice Alito's dissent

wherein he states, at 916, referring to Justice Gorsuch's opinion at 906: "The
meaning of this statement is unmistakable and cannot have been inadvertent:
A supervised release revocation proceeding is a criminal prosecution and is
therefore governed by the Sixth Amendment (and the Fifth Amendment to boot)"
(emphasis added). Like §3583(k)'s subjection to prison time beyond the jury's
verdict, the rest of §3583 subjects the defendant to extra prison time beyond
the jury's verdict.

Even without the mandatory minimum aspect,

§3583 adds

prison time and is therefore a criminal prosecution subject to Double Jeopardy
protections, whereas traditional probation and parole only subject a defendant
prison time deferred. This additional prison time means that the Supervised
7

Release Proceedings fail the Blockburger test against Double Jeopardy: "The
test is whether the individual acts are prohibited, or the course of action
which they constitute. If the former, then each act is punishable separately...
If the latter,
Blockburger
omitted,

there can be but one penalty" 76 L. Ed. 306, 284 US 299

v

United

emphasis

States,

added).

at

The

308

fact

(internal

that

§3583

quotations

and

citations

cannot be imposed upon a

defendant unless they have been convicted of another violation of a statute
causes it to necessarily require that the exact same element be proven for
§3583

to

apply,

and the new rule declaring revocation proceedings

to be

criminal prosecutions creates a situation where two statutes punish nearly
every

crime.

According

to

Blockburger,

only

one

penalty

may

apply.

Unfortunately though, every time a supervised release revocation is held, the
defendant is, for a second time, third time, fourth time, ad infinitum time
subjected to "jeopardy of life or limb"
punishment

cannot

be

divorced

from

(5th Amendment).

§3583

without

This additional

nullifying

the

entire

statute. Thusly, §3583 is, in its entirety, Unconstitutional and a violation
of

Double

Jeopardy.

overturned,

and

so

Blackstone,

judges

incorrectly

when

Also

thusly,

petitioner
should

this

turns

disregard

necessary

to

requires
Stare

precedent

to

vindicate

that

Johnson (2000JJ be

Decisis,
that
the

"...according

articulates
old

[rule]

a

to

rule
from

misrepresentation' Blackstone 70; see also 1 Kent 443 ('If... any solemnly
adjudged case can be shown to be founded in error, it is no doubt the right
and the duty of the judges who have a similar case before them, to correct
the error'). He went further: when a

former decision is manifestly unjust

or fails to conform to reason, it is not simply 'bad law' but 'not law' at
all.

Blackstone 70." (emphasis and quotations/citations intact)

(underlines

added) Justice Thomas, concurring in Gamble v United States 204 L. Ed. 2d 322
S.

Ct.

at 348.

Justice Thomas goes on to say:

judicial decision...

"A demonstrably incorrect

is tantamount to making law, and adhering to it both
8

disregards the supremacy of the Constitution and perpetuates a usurpation of
the legislative power" in Gamble at 349. Beyond Justice Thomas, we can go back
to

the

founding

of

our

Republic

to

find

support:

"No

legislative

act,

therefore, contrary to the Constitution, can be valid" The Federalist No. 78
at 467.

Support can even be found in the history of the Fifth Amendment

itself. The first draft of the Fifth Amendment read, in part: "more than one
trial or one punishment for the same offence" (emphasis added) in reference
to Double Jeopardy

1 Annals of Congress,

753 (1789), so it was clearly

understood at the founding of the Republic to include two punishments on the
same conviction, one being heaped upon the other without the benefit of a
separate trial (as happens with §3583 at the very least at each revocation
hearing), as being unjust and in violation of Double Jeopardy. The final text
doesn't even preclude this interpretation; rather, it presents the same view
in more elegant terms. Because of the preceding, petitioner asks for ! this
‘-i. - -

Court to Grant Certiorari for the purpose of

Jtm

settling the disparities in

Supreme Court precedent and rectifying Constitutional violations which have
been enumerated herein.

IV. Supervised Release Violates the Sixth Amendment

In Haymond,

the Supreme Court granted the right to Trial By Jury in

§3583(k) proceedings. Petitioner will now make his case that the rest of 18
U.S.C.S.

§3583

requires

the

same

protection

as was

granted

in Haymond.

Petitioner begins with Justice Gorsuch, for Majority (plurality decision):
"While the Sixth Amendment surely does not require a jury to find every fact
the government relies on to adjust the terms of a prisoner's confinement (say,
by reducing some of his privileges as a sanction for violating the prison
rules), that does not mean the government can send a free man back to prison
9

for years based on judge found facts." Haymond at 910 (emphasis added). He
goes on to say: "the few courts that grappled with this issue [in the early
Republic]

seem to have recognized that

infamous*

punishments,

such as a

substantial additional term in prison, might implicate the right to trial by
.jury.

See, e.g. Gross v Rice, 71 Me. 241, 246-252 (1810); In re Edwards, 43

N.J.L. 555. 557-558 (1881)." Haymond at 911 (emphasis added). Even Justice
Alito in his dissent admits that Haymond must be interpreted in this manner:
"The plurality opinion appears to have been carefully crafted for the purpose
of laying the groundwork for later decisions of much broader scope" Haymond
at 915. Justice Alito goes on to complain: "Also telling is the plurality's
response to the Government's argument that Apprendi v New Jersey, Blakley,
and Alleyne v United States, apply only to a defendant's sentence proceeding
and not, to a supervised-release revocation proceeding, which the Government
describes

as

a

'post

judgement

sentence-administration

Rejecting this argument, the plurality huffs that
and

Sixth Amendments'

cannot

be

dodge[d]

relabeling a criminal prosecution a ...
a

'postjudgment

sentence

by

proceeding].

the demands of the Fifth
the

simple

expedient

'sentence modification'

administration proceeding'.

The

of

imposed at

meaning of

this

statement is unmistakable and cannot have been inadvertent: A supervisedrelease

revocation proceeding

is a CRIMINAL PROSECUTION and is

therefore

governed by the sixth Amendment (and the fifth Amendment to boot). And there
is more, ('any accusation triggering new and additional punishment [must be]
proven to the satisfaction of a jury beyond a reasonable doubt') ('a jury must
find all of the facts necessary to authorize a judicial punishment') Alito,
in Haymond dissenting at 916 (citations omitted, quotes intact, underlining
added). Petitioner argues that these statements create a clear intent by the
Supreme Court that all of §3583 be afforded the Right to Trial by Jury in
revocation proceedings.
10

V. Supervised Release Violates the Eighth Amendment

Haymond

also

opens

§3583

to a challenge based upon Apprendi v New

Jersey, 530 US 466, 120 S. Ct. 2348, 147 L. Ed. 2d 435. "In [Apprendi], for
example, this Court held Unconstitutional a sentencing scheme that allowed a
judge to increase a defendant's sentence beyond the statutory maximum based
upon the judge's finding of new facts by a preponderance of the evidence."
Gorsuch, in Haymond at 898-899.

§3583 likewise allows for the extension of

prison time beyond the statutory maximum (regardless of whether each instance
of revocation places the term beyond the maximum, this statute still exposes
the defendant to the possibility) based on a preponderance of the evidence
scheme,1 with no

check provided to prevent an extension beyond the maximum

prison time for

the statute. This means that a purely technical violation

without breaking another law can easily expose a defendant to additional
prison time,

as per Johnson (supposedly for the same offense), beyond the

maximum allowed by law, which necessarily violates Apprendi. Thus one or the
other must be overruled. Petitioner advocates that Johnson be overruled, as
that disparity solves the most issues most elegantly. Unfortunately for the
Government, this means the death of §3583.

Conclusion

Petitioner has outlined three reasons why he believes 18 U.S.C. §3583 to
be Unconstitutional on its face. He has presented his arguments based upon a
New

Rule

of

Constitutional

Law

announced

in

Haymond,

that

being

that

supervised release revocation proceedings are now to be considered a criminal
proceeding and therefore subject to 5th, 6th, and 8th Amendment protections.
Petitioner has been sentenced to a term of supervised release, and being
11

exposed now to the proceedings therein, has standing to challenge the Constitutionality
of §3583. In this mien, he now asks this Court to Grant Certiorari for the
purpose

of

settling

the

disparities

in

the

Supreme

Court

precedent

and

rectifying Constitutional violations which have been enumerated herein.

Respectfully Submitted,

Date

Signed

CERTIFICATE OF SERVICE

I, Hernando Javier Vergara, hereby swear, under penalty of perjury that the
foregoing

Motion

Representative on

was

placed

os/ay

in

the

hands

of

FSL

Jesup

Legal Mail

, 2021; and ask the Court to provide copies to:

Attorney of Record

U.S. Attorney's Office, M.D. of Florida

or/xi/*/
Signed

the

Date
12

